Report No. D-2011-090                July 22, 2011




        Cost of War Data for Marine Corps
     Contingency Operations Were Not Reliable
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing by
phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CBS                           Cost Breakdown Structure
DFAS                          Defense Finance and Accounting Service
DoD FMR                       Department of Defense Financial Management Regulation
DS CAC                        Deployed Support Cost Account Code
GAO                           Government Accountability Office
HQMC                          Headquarters, Marine Corps
O&M                           Operation and Maintenance
OCO                           Overseas Contingency Operations
OEF                           Operation Enduring Freedom
OIF                           Operation Iraqi Freedom
SABRS                         Standard Accounting, Budgeting and Reporting System
SDT                           Second Destination Transportation
                                       INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                        400 ARMY NAVY DRIVE
                                   ARLINGTON, VIRGINIA 22202-4704


                                                                                       .Jul y 22, 201 1

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHI EF
                 FINANCIAL OFFICER
               ASSISTANT DEPUTY COMMANDANT OF THE MARINE CORPS
                 FOR PROGRAMS AND RESOURCES AND FISCAL DIRECTOR
                 OF THE MARlNE CORPS

SUBJECT: Cost of War Data for Marine Corps Contingency Operations Were Not Reliable
         (Report No. D-20 11-090)

We are providing this report for your information and conU11ent. Marine Corps officials did not
always support or accurately report FY 2008 overseas contingency operations (OCO) costs.
Specifica ll y, based on our sample results, we project that they supported 179 transactions, va lued
at approx imately $2 .27 billion, and partiall y supported 14 other transacti ons, val ued at
approx imately $204 million. However, our projections also show that they could not support
86 transactions, va lued at approximately $ 1.82 bi lli on. In addition, we project that they did not
accurately report approximately $58 million under the correct operation and another
$ 1.36 bi lli on under the correct cost category in the 000 Cost of War Report. Furthermore, we
project that Marine Corps officials incorrect ly reported approximatel y $40 milli on as OCO costs
despite those costs not directly supporting OCO. We considered comments from the Acting
Assistant Secretary of the Navy (F inancia l Management and Comptroller) on a draft of thi s
report when preparing the final report.

As a result of management comments, we deleted draft Recommendation 5 and renumbered draft
Recommendation 6 as Reconullendation 5. Management comments generally conformed to the
requirements of 000 Directive 7650.3; however, the Acting Assistant Secretary of the Navy
(Fi nancia l Management and Comptro ller) did not always provide a completion date for the
planned actions addressing our reconU11endations. Therefore, we request the Acting Assistant
Secretary of the Navy (Financial Management and Comptroller) provide the completion date of
planned actions to Recommendations 3.a, 3.b, 3.c, and 5 by August 22, 20 11.

Please provide comments that conform to the requirements of 000 Directive 7650.3. If
possible, send management comments in electroni c format (Adobe Acrobat File onl y) to
audfmr@dodig.mil. Copies of management comments must have the actual signature of the
authori zing offic ial for yo ur organization. We cannot accept the ISignedl symbol in place of the
actua l signature. If you arrange to send classi fi ed comments electronically you must send them
over the SECRET Internet Protoco l Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
60 1-5868 (DSN 329-5 868).



                                              P~ ~- hi~
                                              Patricia A. Marsh, CPA
                                              Assistant Inspector General
                                              Financial Management and Reporting
Report No. D-2011-090 (Project No. D2009-D000FG-0183.000)                         July 22, 2011

              Results in Brief: Cost of War Data for
              Marine Corps Contingency Operations Were
              Not Reliable

                                                       As a result, DoD provided Members of
 What We Did                                           Congress and other decisionmakers unreliable
 We determined whether Marine Corps                    data. Also, portions of the FY 2008 Marine
 officials accurately reported FY 2008 OCO             Corps operation and maintenance obligations
 costs in the DoD Cost of War Report and               reported on the DoD Cost of War Report did
 whether documentation substantiated                   not reflect how funds were actually spent. In
 operation and maintenance obligations and             FY 2011, OCO-related data continued to be
 deobligations.                                        reported using the Cost of War Report, so the
                                                       need for accurate data remains critical to
 What We Found                                         decisionmakers.
 Marine Corps officials did not always support
 or accurately report FY 2008 OCO costs.               What We Recommend
 Based on our sample results, we project that          The Assistant Deputy Commandant of the
 Marine Corps officials properly supported             Marine Corps for Programs and Resources and
 179 transactions, valued at approximately             Fiscal Director of the Marine Corps should:
 $2.27 billion, and partially supported 14 other
 transactions valued at approximately                    • update existing Marine Corps policy to
 $204 million. However, our projections also               define the level of detail and type of
 show that they could not provide sufficient               documentation necessary for maintaining
 documentation to support 86 transactions,                 a written audit trail,
 valued at approximately $1.82 billion.                  • require fund managers to develop
                                                           command-level standard operating
 We also project that Marine Corps officials               procedures, and
 inaccurately entered financial coding that              • review the methodology for allocating
 resulted in approximately $58 million and                 costs across multiple ongoing operations.
 another $1.36 billion not being reported under
 the correct operation or cost category,               Management Comments and
 respectively. Furthermore, we project that
 Marine Corps officials incorrectly reported           Our Response
 approximately $40 million as OCO costs                Based on management comments, we deleted
 despite those costs not supporting OCO.               a recommendation and subsequently
                                                       renumbered another recommendation. The
 Costs were not always supported and                   Acting Assistant Secretary of the Navy
 accurately reported because Marine Corps              (Financial Management and Comptroller)
 officials had not developed command-level             comments were responsive, but did not always
 procedures to implement existing DoD and              include completion dates for the planned
 Marine Corps policies and reporting                   actions. We request that management provide
 requirements. In addition, Headquarters,              a completion date for the planned actions by
 Marine Corps officials did not hold fund              August 22, 2011. Please see the
 managers accountable for the accuracy of data.        recommendations table on page ii.

                                                   i
Report No. D-2011-090 (Project No. D2009-D000FG-0183.000)                   July 22, 2011


Recommendations Table

         Management                    Recommendations                  No Additional
                                      Requiring Comment             Comments Required
Assistant Deputy Commandant of    3.a, 3.b, 3.c, and 5          1, 2, and 4
the Marine Corps for Programs
and Resources and Fiscal
Director of the Marine Corps

Please provide the completion date for the planned actions by August 22, 2011.




                                            ii
Table of Contents
Introduction                                                                       1

      Audit Objective                                                              1
      Background on DoD Contingency Operations in FY 2008                          1
      Insufficient Internal Controls Limit the Reliability of Marine Corps         2
          Cost of War Reporting

Finding. FY 2008 Marine Corps OCO Obligations Were Not Always                      4
          Supported or Accurately Reported

      Marine Corps Officials Could Not Always Sufficiently Support FY 2008         5
          OCO-Related Costs
      Marine Corps Personnel Incorrectly Entered OCO Budget and                    7
          Financial Cost Codes
      Non-OCO Costs Were Reported or Documentation Was Insufficient to            10
          Support Whether Costs Were OCO-Related
      Conclusion                                                                  12
      Management Comments on the Finding and Our Response                         13
      Deleted and Renumbered Recommendations                                      14
      Recommendations, Management Comments, and Our Response                      14

Appendices

      A. Scope and Methodology                                                    17
             Use of Computer-Processed Data                                       18
             Use of Technical Assistance                                          19
             Prior Coverage of Cost of War Reporting for Contingency Operations   19
      B. DoD and Marine Corps Policy and Guidance for Reporting                   21
         OCO-Related Costs
      C. Statistical Sampling Methodology and Projections                         22
      D. Summary of Transactions Tested                                           23
      E. List of Transactions Tested                                              25

Glossary                                                                          30

Management Comments
     Assistant Secretary of the Navy (Financial Management and Comptroller)       32
Introduction
Audit Objective
The overall objective was to determine whether Marine Corps officials accurately reported
FY 2008 OCO-related costs. Specifically, we reviewed whether Marine Corps documentation
substantiated operation and maintenance (O&M) obligations and deobligations processed
through the Standard Accounting, Budgeting and Reporting System (SABRS). See Appendix A
for a discussion of the scope and methodology related to the audit objective and prior audit
coverage. See Appendix B for a description of governing criteria. See Appendix C for the
details of our statistical projections. 1 See Appendix D for a summary of the transactions tested
and Appendix E for a list of sample transactions. See the Glossary for terms used throughout
the report.

Background on DoD Contingency Operations in FY 2008
Public Law 110-181, “The National Defense Authorization Act for Fiscal Year 2008,”
January 28, 2008, Title XV, “Authorization of Additional Appropriations for Operation Iraqi
Freedom and Operation Enduring Freedom,” section 1508, authorized the Marine Corps
approximately $4.74 billion in O&M appropriations to support Operation Iraqi Freedom (OIF)
and Operation Enduring Freedom (OEF). OIF sought to stabilize Iraq, conduct stability and
support operations throughout Iraq, and stop terrorists from using Iraq as a staging area for
terrorist activities. 2 OEF is the continuing effort to track down terrorists and provide stability,
primarily in Afghanistan, by denying terrorist organizations access to training camps and
infrastructure, capturing Al Qaeda leaders and fighters, stopping terrorist activities against the
United States and its allies, and preventing the re-emergence of international terrorist
organizations. In FY 2008, the Marine Corps deployed Marines in support of OIF and OEF; it
contributed to combat and security operations as well as humanitarian support efforts.

DoD Cost of War Reporting Process
In FY 2008, the Defense Finance and Accounting Service (DFAS) Contingency Reporting Cell
prepared monthly and quarterly DoD Cost of War Reports based on O&M obligations broken out
by Cost Breakdown Structure (CBS) cost category by consolidating data that DoD Components
manually calculated from Component-unique accounting systems. The Under Secretary of
Defense (Comptroller)/Chief Financial Officer approved the report before issuing it to
stakeholders, such as the Office of Management and Budget, Congressional Budget Office, and
Members of Congress. According to the Associate Director, Contingency Operations, Under
Secretary of Defense (Comptroller)/Chief Financial Officer, Cost of War Report data are used in
making budgetary decisions affecting current-year contingency operations, estimating future
contingency operation costs, and identifying alternative approaches to successfully achieve
operation objectives.


1
 Projections and transaction amounts throughout this report pertain to absolute values.
2
 Combat Operations in Iraq have ceased, and as of September 1, 2010, the U.S. mission in Iraq is named Operation
New Dawn.


                                                       1
Beginning in FY 2009, DoD prepared the Cost of War Report using the Contingency Operations
Reporting and Analysis System that DFAS developed based on Component-unique programming
logic. 3 In addition to preparing the Cost of War Report based on O&M obligations broken out
by CBS cost category, DoD also began presenting information for Cost of War reporting based
on the total funds appropriated and available, obligations incurred, disbursements made, unpaid
obligations, and the unobligated balance for each program. Since FY 2009, DoD prepared both
reports and made them available to the same stakeholders that received the Cost of War Report
in FY 2008.

FY 2008 Marine Corps Contingency Operations Reporting
In FY 2008, 17 major commands reported approximately $4.74 billion in OCO-related O&M
obligations and deobligations on the DoD Cost of War Report. Officials at the Headquarters,
Marine Corps (HQMC), Programs and Resources, Budget Execution Contingency Cell, were
responsible for tracking, compiling, and submitting all Marine Corps Cost of War data in
FY 2008. The Contingency Cell officials developed “United States Marine Corps Standard
Operating Procedure for Contingency Operations Reporting Process,” December 2007, to:

    •   improve the accuracy and efficiency of the reporting process,
    •   establish a repeatable process for current and future contingency operations, and
    •   ensure that appropriated funds from Congress were used for their intended purpose.

In addition, Contingency Cell officials stated that their budget analysts assigned any transactions
coded with an OCO-related special interest code supporting OIF, OEF, and Operation Noble
Eagle 4 to a specific CBS cost category based on the Marine Corps programming logic, which
was a series of “if/then” statements. Specifically, they stated that if the transactions included a
deployed support cost account code (DS CAC), the cost was reported under a specific CBS cost
category linked to that DS CAC based on Marine Corps Administrative Message 228/07,
“Contingency Cost Account Code Changes FY07,” March 26, 2007. However, Contingency
Cell officials also stated that if the transactions included only an object or sub-object class code
and not a DS CAC, their budget analysts used a separate series of “if/then” statements linking the
object or sub-object class code to a particular CBS cost category.

Insufficient Internal Controls Limit the Reliability of Marine
Corps Cost of War Reporting
We determined that internal control weaknesses in the Marine Corps existed as defined by DoD
Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,” July 29, 2010.
Specifically, for the 10 commands we visited and 2 units in Iraq we contacted, Marine Corps
personnel did not maintain an adequate audit trail that supported initial obligations entered in the
accounting system, nor were changes, including data element changes, adjustments, and error


3
  The Marine Corps used the same programming logic for generating data through the Contingency Operations
Reporting and Analysis System that it used for manually preparing its Cost of War data in FY 2008.
4
  Operation Noble Eagle is the continuing U.S. effort to provide homeland defense and civil support in response to
the terrorist attacks of September 11, 2001.


                                                         2
corrections, properly documented. Additionally, those same commands and units did not
develop written procedures defining internal controls, roles and responsibilities, and
documentation requirements necessary to ensure transactions were properly authorized,
supported, or accurately reported. We will provide a copy of our report to the senior official
responsible for internal controls in the Marine Corps.




                                                3
Finding. FY 2008 Marine Corps OCO
Obligations Were Not Always Supported or
Accurately Reported
Marine Corps officials did not always support or accurately report FY 2008 OCO obligations.
At 10 Marine Corps commands we visited in the continental United States and at two units
contacted in Iraq, Marine Corps officials did not maintain sufficient documentation to properly
support FY 2008 OCO obligations. From the results of our sample of 136 of 280 transactions
processed during FY 2008, we project that:

    •    179 transactions, valued at approximately $2.27 billion, were supported;
    •    86 transactions, valued at approximately $1.82 billion, were unsupported; and
    •    14 transactions, valued at approximately $204 million, were partially supported. 5

In addition, Marine Corps budget and financial analysts entered incorrect budget and financial
cost codes that resulted in the Contingency Cell reporting the costs under the incorrect
contingency operation or CBS cost category on the DoD Cost of War Report. Specifically, we
project that Marine Corps officials entered incorrect:

    •    special interest codes for 6 transactions, 6 valued at approximately $58 million; and
    •    financial cost codes for 97 transactions, valued at approximately $1.36 billion.

Furthermore, we project that Marine Corps officials reported OCO costs for four transactions,
valued at approximately $40 million, that did not support OCO, and the documentation
maintained for other transactions was insufficient to support whether they were OCO-related or
correctly reported. These examples of misreporting costs and insufficient documentation also
contributed to the unreliability of the OCO-related data.

The lack of fully supported or accurately reported transactions occurred because Marine Corps
officials did not develop command-level written procedures for implementing the existing
guidance in DoD Regulation 7000.14-R, “DoD Financial Management Regulation” (DoD FMR)
and Marine Corps policy. In addition, HQMC officials did not hold fund managers accountable
for the accuracy of their submissions and the guidance it issued did not clearly define the
circumstances for entering specific OCO-related coding for transactions entered in SABRS. As a
result, DoD provided Congress and other decisionmakers unreliable data because portions of the
FY 2008 Marine Corps O&M obligations reported on the DoD Cost of War Report were
inaccurate.




5
 Results do not total 280 transactions because of rounding.
6
 Of the projected 80 transactions that had incorrect special interest codes, only 6 resulted in Contingency Cell
officials reporting the cost under an incorrect operation.


                                                          4
Marine Corps Officials Could Not Always Sufficiently Support
FY 2008 OCO-Related Costs
Based on our sample results, we project that officials from the Marine Corps commands visited
and units contacted maintained documentation to support 179 transactions, valued at
                                approximately $2.27 billion. The funding documents provided
   However, our projections
                                were consistent with the requirements in Marine Corps
     also show that Marine
                                Order P7300.21, “Marine Corps Financial Execution Standard
    Corps personnel did not
                                Operating Procedure Manual,” March 29, 2001, for supporting
       maintain adequate
                                obligations. In addition, we project that Marine Corps personnel
   documentation to support
                                maintained documentation that partially supported
   the justification and date
                                14 transactions, valued at approximately $204 million.
   of 86 transactions, valued
                                However, our projections also show that Marine Corps
        at approximately
                                personnel did not maintain adequate documentation to support
          $1.82 billion.
                                the justification and date of 86 transactions, valued at
approximately $1.82 billion. The unsupported transactions primarily related to second
destination transportation (SDT)-related transactions and data element changes, adjustments, or
error corrections.

SDT-Related Transactions Were Not Supportable
HQMC Installations and Logistics officials did not develop or maintain documentation to
support the transactions they entered in SABRS for the SDT-related obligations we reviewed.
DoD FMR 7000.14-R, Volume 3, Chapter 8, “Standards for Recording and Reviewing
Commitments and Obligations,” June 2005, requires accounting personnel to have a copy of the
obligating document before recording an obligation into the system. HQMC Installations and
Logistics budget analysts stated that they transferred funding between transportation account
codes to ensure that it was available for expenditures incurred to move material between the
original destination and another destination. These transactions were entered into SABRS to
keep accounts liquid for future expenditures.

HQMC Installations and Logistics officials described to us the unwritten procedures they
followed in FY 2008 for authorizing and approving obligations pertaining to SDT-related
transactions. The lack of written procedures and the inability to support obligations was an
internal control weakness.

Changes to SABRS Were Not Auditable or Supportable
Marine Corps officials could not provide documentation to support all data element changes,
adjustments, or error corrections for the transactions sampled. DoD FMR 7000.14-R,
Volume 6A, Chapter 2, “Financial Reports Roles and Responsibilities,” March 2002, requires
DoD Components to support adjustments with written documentation that is sufficiently detailed
to provide an audit trail to the source transaction that details the justification, date, and
authorization of the adjustment. Additionally, Marine Corps Order P7300.21 requires fund
managers to maintain documentation that substantiates information processed in the accounting
system and that satisfies audit requirements.



                                                5
Marine Corps officials stated that they entered data element changes, adjustments, and error
corrections in SABRS to ensure the accuracy of the financial information in the accounting
system. Examples of data element changes include changes to the special interest code, cost
account code, object or sub-object codes, or Budget Execution Activity within a standard
document number.

Although DoD and Marine Corps guidance addressed the documentation requirements for
adjustments, it did not address the need to document data element changes or error corrections.
In addition, none of the Marine Corps commands or units had developed standard operating
procedures describing roles and responsibilities for authorizing transactions or the level or type
of documentation required to support an obligation resulting from data element changes,
adjustments, or error corrections. The lack of documented requirements and implementing
procedures affected the auditability of these types of transactions and contributed to the inability
of the Marine Corps to support all obligations as required by DoD and Marine Corps policy.

With the exception of the Logistics Command, Marine Corps officials did not develop an audit
trail to support data element changes because those changes were routinely performed within the
scope of their duties or did not change the level of funding. Officials at Logistics Command
stated that they developed new funding documents to support data element changes when time
allowed because they believed all transactions should be supported by an authorized funding
document. We recognize that Logistics Command officials made a concerted effort to support
transactions they entered in the accounting system as required by Marine Corps Order P7300.21.
However, despite those efforts, documentation also showed approval of the new funding
documents as late as 2 weeks after entering the transactions into SABRS.

Changes resulting from data element changes, adjustments, or error corrections should be
documented in writing because they could directly affect how information is reported or used by
                             decisionmakers. On June 11, 2008, the HQMC Programs and
        The use of the       Resources, Accounting and Financial Systems Branch, issued a
     memorandum field        memorandum, “Use of Memorandum Field on Active File Records
      would enable the       in SABRS,” encouraging personnel to use a newly developed
  Marine Corps to more memorandum field in the SABRS Active File for recording
  accurately support the information about a transaction for historical and tracking purposes.
   justification and date    However, none of the personnel interviewed indicated that they had
        of changes to        used this electronic feature. The use of the memorandum field
      transactions . . .     would enable the Marine Corps to more accurately support the
justification and date of changes to transactions and provide an audit trail for data element
changes, adjustments, and error corrections. The Marine Corps should revise the October 2008
version of Marine Corps Order 7300.21A to ensure that all transactions entered in the accounting
system are fully supported and provide congressional and DoD decisionmakers reliable data for
making budgetary decisions about contingency operations. 7



7
 Marine Corps Order 7300.21A, “Marine Corps Financial Management Standard Operating Procedure Manual,”
October 2, 2008, updated requirements. We based our audit work on the March 2001 order because the October
2008 order was not yet effective when the transactions occurred in FY 2008.


                                                      6
Marine Corps Personnel Incorrectly Entered OCO Budget and
Financial Cost Codes
Marine Corps personnel entered inaccurate special interest codes in the SABRS financial
information pointer, which caused FY 2008 OCO-related O&M obligations to be incorrectly
reported on the DoD Cost of War Report. Specifically, based on our sample results, projections
show that 6 transactions, valued at approximately $58 million, were incorrectly reported. In
addition, our projections show that Marine Corps personnel entered incorrect financial cost
codes, which resulted in those costs not being reported under a correct CBS cost category on the
DoD Cost of War Report for 97 transactions, valued at approximately $1.36 billion.

Use of OCO-Related Special Interest Codes Was Inconsistent
Marine Corps officials entered OCO-related special interest codes that were inconsistent with
                                 documentation supporting the purpose of the transaction. Our
  Our projections show that
                                 projections show that miscoding the transactions resulted in the
  miscoding the transactions
                                 costs not being reported in the DoD Cost of War Report under a
    resulted in the costs not
                                 correct contingency operation for six transactions, valued at
  being reported . . . under a
                                 approximately $58 million. For example, one transaction
      correct contingency
                                 sampled related to $8.4 million for providing simultaneous
         operation for
                                 electro-optical and infrared imagery surveillance services for
  six transactions, valued at
                                 unmanned aerial vehicles. Documentation showed that these
  approximately $58 million.
                                 services were needed for the 24th Marine Expeditionary Unit to
support OEF, but personnel at Systems Command entered a special interest code that aligned
with costs reported under OIF, not OEF, on the DoD Cost of War Report.

Marine Corps personnel used inconsistent methodologies in choosing which special interest code
to enter based on:

   •   specific direction from the HQMC Budget Execution Contingency Cell;
   •   supplemental funding and direction from within the command;
   •   documentation in the Budget Execution Activity program manager’s funding request;
   •   Department of the Navy direction in a memorandum of agreement for Uniform Funding
       and Management of Morale, Welfare, and Recreation;
   •   special interest codes that were previously entered;
   •   location where the majority of Marines were deployed; and
   •   information already included in the lines of accounting assigned to them.

For instance, officials at one command stated that they always entered a specific special interest
code (PF0) supporting OIF because of language in the June 19, 2008, Marine Corps message,
“Changes to Cost of War Reporting.” Although that message also included other special interest
codes that could be used, those officials stated that they coded transactions to OIF because most
Marines were deployed in Iraq during FY 2008 and because any OCO-related costs incurred
supported those operations. In other cases, officials entered special interest codes based on
financial data already included in their lines of accounting. Those officials stated that they did
not have the ability to change the financial coding. However, the HQMC Programs and
Resources, Accounting and Financial Systems, Branch head stated that commands were


                                                7
responsible for entering accurate and relevant financial codes within a standard document
number in SABRS.

Marine Corps guidance was issued for implementing requirements in DoD FMR 7000.14-R,
volume 12, chapter 23. Officials from the Contingency Cell provided guidance in effect during
FY 2008 that required special interest codes to be entered for OCO-related transactions.
Specifically, those officials provided Marine Corps Administrative Message 228/07 and the
June 19, 2008, message. The administrative message requires Marine Corps commands to use
the appropriate special interest code that ensures they receive proper reimbursement of OCO-
related costs and to enter DS CACs. The June 2008 message reiterates these requirements and
includes revised Marine Corps programming logic for existing DS CACs.

However, neither the administrative message nor the June 2008 message defined when a specific
special interest code should be entered and with which operation the code aligned for Cost of
War reporting purposes. This information would have enabled commands to more accurately
code FY 2008 OCO-related transactions. The Marine Corps should ensure that future guidance
defines circumstances for entering specific special interest codes because specific coding directly
affects how information for high-visibility operations is reported by Contingency Cell officials.
In addition, the guidance should address fund manager responsibilities for changing previously
entered special interest codes to ensure the accuracy of Marine Corps Cost of War data. When
fund managers base their decisions to enter special interest codes on reasons other than the
purpose of the transaction, the Marine Corps’ ability to meet the intent of its guidance is limited.

Inaccurate Financial Codes Were Used
Marine Corps personnel entered inaccurate DS CACs and object and sub-object class codes. Our
projections show that because HQMC did not hold fund managers accountable for the accuracy
of their data, inaccurate financial codes resulted in costs not being reported under a correct CBS
cost category on the DoD Cost of War Report for 97 transactions, valued at approximately
$1.36 billion.

Costs Were Incorrectly Reported Using DS CACs
Marine Corps personnel entered DS CACs that were inconsistent with the purpose of the
transactions and that resulted in the cost of those transactions being misreported on the DoD Cost
of War Report. The Marine Corps Administrative Message 228/07 includes a series of DS CACs
that reflect programming logic for assigning costs to an applicable CBS cost category for Cost of
War reporting purposes. For example, if officials at a Marine Corps command entered a
DS CAC of “DS36” for a transaction, the cost of that transaction would have been reported
under CBS cost category “4.6,” which pertains to SDT.

For the transactions that included a DS CAC, documentation provided by the commands and
units showed that the specific DS CAC was inaccurate. For instance, officials from a Marine
Corps unit at Al’Asad Air Base in Iraq entered a DS CAC for other supplies and equipment, such
as special protective gear or containers, for a $5.7 million transaction pertaining to bus
transportation services on base. Using this code resulted in Contingency Cell personnel not
reporting this cost under the correct CBS cost category that related to obligations incurred for
base operating expenses, such as local area shuttle services.


                                                 8
                                        Despite Marine Corps Administrative Message 228/07,
       Despite Marine Corps             which required commands to enter DS CACs for
      Administrative Message            transactions containing OCO-related special interest codes
      228/07, which required            after April 1, 2007, and the message the Contingency Cell
         commands to enter              officials issued on June 19, 2008, reiterating that
  DS CACs . . . and the message         requirement, Contingency Cell officials did not hold all
  the Contingency Cell officials        fund managers accountable for entering those codes. In
   issued . . . Contingency Cell        particular, they granted Systems Command a waiver from
   officials did not hold all fund      entering DS CACs. However, HQMC officials
    managers accountable for            implemented DS CACs to improve the accuracy of Cost of
        entering those codes.           War reporting, therefore, all fund managers should have
                                        been held accountable for entering and ensuring the
accuracy of those codes. The Accounting Branch head at Systems Command stated that
although the command was aware of the requirement to enter DS CACs, he believed entering
that type of information did not add value in monitoring the execution of command funds, so he
did not require his staff to enter these codes. Because the Systems Command personnel reported
the largest amount of all FY 2008 Marine Corps O&M OCO-related obligations, they should not
be exempt from using DS CACs.

Costs Were Incorrectly Reported Using an Object Class Code
Marine Corps personnel entered an object class code that was inconsistent with the purpose of
the transaction and that resulted in the cost of that transaction being misreported on the DoD
Cost of War Report. For example, Systems Command personnel entered an inaccurate object
class code related to personnel equipment costs, such as desert camouflage, for a $34.1 million
transaction to acquire axles for mine-resistant, ambush-protected vehicles. Using this code
resulted in Contingency Cell personnel not reporting this cost under the correct CBS cost
category that related to obligations incurred to operate or repair equipment used to defeat or
counter the use of improvised explosive devices.

Costs Were Incorrectly Reported Using Sub-object Class Codes
Marine Corps personnel entered sub-object class codes that were inconsistent with the purpose of
the transactions, and that inconsistency resulted in the Contingency Cell personnel misreporting
the cost of those transactions under an incorrect CBS cost category. For example, a
$16.1 million transaction at Systems Command related to procuring intelligence data handling
and command and control equipment for a combat operations center in either Iraq or
Afghanistan. For this transaction, Systems Command personnel entered a sub-object class code
for general contract services even though the documentation clearly showed that this transaction
should have been reported under a CBS cost category for obligations incurred to design,
engineer, install, and maintain command, control, communications, computers, and
intelligence-related systems.

None of the commands visited or units contacted had developed implementing procedures
describing such internal controls as roles and responsibilities, including supervisory review, or
actions required to ensure that the data entered in SABRS were accurate and supported. Marine
Corps Order P7300.21 requires fund managers to monitor the execution of funds, prepare source


                                                9
documentation, record accounting transactions in the accounting system, and ensure the accuracy
of financial data entered in the financial information pointer. Although the Contingency Cell
performed a high-level review of Cost of War data submissions, HQMC did not hold fund
managers accountable for reviewing or validating their data despite the requirement that they
ensure the accuracy of each financial transaction. To adhere to policy and more effectively hold
fund managers accountable for the accuracy of data, HQMC Budget Execution Branch head
should require the development of command-level procedures describing the types of
documentation to be retained in each fund file, the level of detail required in funding documents,
and the process for ensuring the accuracy of data entered in SABRS. Incorrect financial data
increases the potential for inaccurate and unreliable Marine Corps budget reports.

Non-OCO Costs Were Reported or Documentation Was
Insufficient to Support Whether Costs Were OCO-Related
Marine Corps officials reported costs not directly supporting OCO on the DoD Cost of War
Report. Specifically, our projections show that they reported four transactions, valued at
approximately $40 million, on the Cost of War Report that were not OCO-related. In addition,
based on our sample results, we project that Marine Corps officials did not maintain sufficient
documentation to support whether costs were directly attributable to OCO-related operations for
29 transactions. Further, our projections show that Marine Corps officials did not maintain
sufficient documentation to support whether costs were accurately reported under the correct
operation on the DoD Cost of War Report for 148 transactions, valued at
approximately $2.44 billion.

Non-OCO Costs Were Reported on the Cost of War Report
Our projections show that Marine Corps personnel coded four non-OCO transactions, valued at
approximately $40 million, with an OCO special interest code and erroneously included these
transactions with other OCO-related costs on the DoD Cost of War Report. Documentation for
these transactions included OCO-related special interest codes that resulted in Marine Corps
officials incorrectly reporting these transactions as OIF-related costs on the DoD Cost of War
Report.

For example, HQMC Budget Execution personnel used $11 million in OCO funding 8 for World
War II prisoner of war back pay compensation that was not directly attributed to OCO in
FY 2008. The Branch head stated that Public Law 110-181, Section 675, “Modification of
Amount of Back Pay for Members of Navy and Marine Corps Selected for Promotion While
Interned as Prisoners of War During World War II to Take into Account Changes in Consumer
Price Index,” requires the Marine Corps to fund the prisoner of war back pay costs. Although
HQMC Budget Execution personnel were authorized to use supplemental funding to fund
applicable World War II prisoner of war back pay compensation costs, this cost did not directly
support OCO and, therefore, should not have been reported on the DoD Cost of War Report.



8
 Secretary of the Navy Instruction 7220.85, “Back Pay for Members of the Navy and Marine Corps Selected for
Promotion While Interned as Prisoners of War During World War II,” August 29, 2001, authorizes payments from
any currently available appropriation.


                                                     10
In addition, officials at Blount Island Command, which is subordinate to Logistics Command,
used $8.6 million in OCO funding to cover a baseline shortfall for labor costs supporting
maritime pre-positioning of ships. Although this cost could have been OCO-related, a
supervisory financial management analyst at Blount Island Command stated that it did not
specifically support OCO.

                                          Including costs of non-OCO transactions overstates
     Including costs of non-OCO           Marine Corps OCO costs related to its support of OIF
   transactions overstates Marine         and limits DoD’s ability to accurately account for and
  Corps OCO costs . . . and limits        report the true costs affecting operations in Iraq and
 DoD’s ability to accurately account      Afghanistan. The Marine Corps should ensure that
     for and report the true costs        future guidance defines circumstances for entering
  affecting operations in Iraq and        special interest codes when using OCO funding to
             Afghanistan.                 support non-OCO transactions because specific coding
directly affects how information for high-visibility operations is reported by Contingency Cell
officials.

Insufficient Documentation Was Maintained to Support Whether Costs
Were OCO-Related
Marine Corps officials did not maintain sufficient documentation, such as funding documents
and statements of work, to support whether costs were directly attributable to OCO-related
operations. Specifically, our projections show that Marine Corps officials maintained
insufficient documentation to support whether 29 transactions supported OCO-related
operations. For instance, a $16.3 million transaction from HQMC Installations and Logistics
was for the privatization of water and wastewater utilities at Marine Corps installations in the
continental United States. Installations and Logistics officials provided documentation, but it did
not demonstrate how or why these services supported OCO-related requirements.

Marine Corps Order P7300.21 requires that the Marine Corps support all transactions entered in
the accounting system, but it does not identify the specificity to which fund managers must
include information to support the purpose of transactions. In addition, none of the commands
had developed standard operating procedures to implement Marine Corps guidance. Without
having specific and consistent documentation requirements in place, such as the level of detailed
information necessary to support a transaction, the support would be based solely on the
discretion of individual fund managers.

Documentation Was Insufficient to Support Whether Costs Were
Reported Under the Correct Contingency Operation
Although Marine Corps officials generally maintained documentation, including statements of
work, contracts, and Military Interdepartmental Purchase Request Acceptances, our projections
show that it was insufficient to support whether costs were accurately reported under the correct
operation on the DoD Cost of War Report for 148 transactions, valued at approximately
$2.44 billion. For instance, 4 transactions from HQMC Installations and Logistics pertained to
$93.8 million that was transferred to the U.S. Transportation Command to reimburse it for
transportation costs affecting OIF and OEF. However, HQMC Installations and Logistics



                                                11
officials entered a special interest code that resulted in those costs only being reported under
OIF operations.

Although documentation showed that these costs were OCO-related, it did not clearly
differentiate which operation was supported. In March 2009, the Government Accountability
Office (GAO) concluded that although the Marine Corps captured totals for procurement and
select O&M costs, a method for allocating the portion of costs attributable to OIF versus OEF
did not exist. 9 As a result, the report concluded that all costs fitting that situation were
subsequently reported as an OIF cost. Since the GAO review, the Marine Corps developed a
methodology for allocating costs that it began implementing in FY 2009. However, that
methodology allocated Procurement, Marine Corps, and limited O&M, Marine Corps, costs
based on the percentage of deployed Marines supporting each contingency operation. To be
effective and ensure accurate reporting, the Marine Corps methodology should be revised so that
all applicable costs that support multiple operations are properly allocated.

Conclusion
Marine Corps officials did not always support or accurately report FY 2008 OCO obligations.
The results of our sample of 136 of 280 transactions allowed us to project that 179, valued at
approximately $2.27 billion, were supported. In general, however, personnel at the 10 Marine
Corps commands visited and both units in Iraq contacted did not sufficiently support OCO-
related obligations entered in SABRS during FY 2008. Additionally, officials did not always
report the costs under the correct operation or CBS cost category in the DoD Cost of War Report
because the command and unit personnel had entered inaccurate budget and financial codes.
Specifically, we project that Marine Corps officials could not support the justification and date of
86 transactions, valued at approximately $1.82 billion, and could only partially support 14 other
transactions, valued at approximately $204 million.

In addition, we project that Marine Corps officials did not report 6 transactions, valued at
approximately $58 million under the correct operation, and they did not report 97 transactions,
valued at approximately $1.36 billion under a correct CBS cost category in the FY 2008 DoD
Cost of War Report. Furthermore, our projections show that Marine Corps officials reported the
cost of four non-OCO transactions, valued at approximately $40 million, on the Cost of War
report despite those transactions not directly supporting OCO.

The lack of fully supported or accurately reported transactions occurred because Marine Corps
officials did not comply with existing DoD FMR or Marine Corps policies requiring a written
audit trail for all transactions. Also, Contingency Cell officials issued ineffective guidance to
support FY 2008 Marine Corps Cost of War reporting. FY 2008 Marine Corps Cost of War data
have limited reliability because Marine Corps officials could not fully support or did not
accurately report OCO-related costs. In addition, not reporting costs under the correct
contingency operation or CBS cost category limited DoD’s ability to accurately account for and
report the costs affecting operations in Iraq and Afghanistan. Monthly and quarterly Cost of War


9
 GAO Report No. 09-302, “DoD Needs to More Accurately Capture and Report the Costs of Operation Iraqi
Freedom and Operation Enduring Freedom,” March 17, 2009.


                                                    12
Reports continue to be used by congressional, DoD, and other decisionmakers, so the need for
accurate data remains critical to ensuring that the Cost of War Reports are reliable and can be
used as intended for analyzing current and future budget requests, and for projecting future
contingency operation costs.

Management Comments on the Finding and Our Response
Assistant Secretary of the Navy Comments
The Acting Assistant Secretary of the Navy (Financial Management and Comptroller) disagreed
with our audit projection that approximately $3.4 billion in OCO costs was misstated on the Cost
of War Report. The Assistant Secretary stated that the Marine Corps recently completed an audit
of the General Fund Statement of Budgetary Resources for FY 2010 in which the Marine Corps
produced more than 13,000 source documents to support a sample of 1,730 transactions. He also
stated that the results of that audit demonstrate the Marine Corps’ ability to produce auditable
supporting documentation and noted that the results of that audit did not specifically identify
concerns with OCO transactions. Further, the Assistant Secretary stated that the results of the
General Fund Statement of Budgetary Resources audit demonstrate the effectiveness of Marine
Corps actions implemented since 2008 to improve financial reporting.

Our Response
Although the Marine Corps recently completed an audit of the General Fund Statement of
Budgetary Resources for FY 2010, that audit resulted in the DoD Office of Inspector General’s
issuing a disclaimer of opinion because of significant scope limitations. One of the limitations
was the Marine Corps’ inability to provide sufficient and relevant audit evidence to specifically
substantiate all transactions tested during the audit.

On September 14, 2010, we issued a Notice of Findings and Recommendations to the
Marine Corps in which we stated that it had not provided sufficient and relevant documentation
because of its document retention procedures, inability to readily locate requested
documentation, or complex methods of recording obligations, expenses, and liquidations.
Although the Notice of Findings and Recommendations did not specifically address concerns
with the OCO transactions, the transactions selected for testing were statistically sampled from
the population of transactions. The OCO transactions in our sample were also statistically
sampled from the population of obligations greater than or equal to $5 million and deobligations
less than or equal to negative $5 million.

Our projections showed that the Marine Corps was unable to adequately support 86 transactions,
valued at approximately $1.82 billion, and only partially support 14 transactions, valued at
approximately $204 million. Further, our projections showed that the Marine Corps did not
report approximately $58 million in OCO costs under the correct contingency operation and
approximately $1.36 billion under the correct cost category on the DoD Cost of War Report.
Based on the results of our audit of the FY 2010 General Fund Statement of Budgetary
Resources, we disagree that corrective actions by the Marine Corps since 2008 have resulted in
its ability to more accurately support and report OCO transactions.




                                                13
Deleted and Renumbered Recommendations
As a result of management comments and further review of the issues by our Office of General
Counsel, we deleted draft Recommendation 5 and renumbered draft Recommendation 6 as
Recommendation 5.

Recommendations, Management Comments, and
Our Response
We recommend that the Assistant Deputy Commandant of the Marine Corps for Programs
and Resources and Fiscal Director of the Marine Corps:

       1. Update Marine Corps Order 7300.21A, “Marine Corps Financial Management
Standard Operating Procedure Manual,” October 2, 2008, to define the level of detail and
types of documentation necessary for maintaining a written audit trail to support all
obligations, including those related to data element changes, adjustments, and error
corrections, to improve the accuracy and supportability of financial information processed
through the Standard Accounting, Budgeting and Reporting System.

Management Comments
The Acting Assistant Secretary of the Navy (Financial Management and Comptroller) agreed,
stating that the Marine Corps was in the process of updating Marine Corps Order 7300.21A and
expected that those updates would be completed by the end of FY 2011.

Our Response
The Navy comments are responsive, and proposed actions will address our concerns; therefore,
no further comments are required.

       2. Develop administrative procedures for the overseas contingency operations
reporting process, and initiate actions against fund managers that do not show that they
have properly reviewed and validated the accuracy and supportability of Cost of War data.

Management Comments
The Acting Assistant Secretary of the Navy (Financial Management and Comptroller) agreed,
stating that the Marine Corps Fiscal Director has implemented administrative procedures for
OCO reporting. Specifically, he stated that updates to the Marine Corps Contingency Operations
Financial Management Handbook and the Marine Corps standard financial checklist were made
and a naval message outlining coding requirements was issued. In addition, the Acting Assistant
Secretary stated that as part of the monthly Cost of War administrative review process, improper
coding issues are forwarded to the Marine Corps Financial Evaluation and Analysis Team to be
used in training field comptroller personnel and correcting root cause issues.

Our Response
The Navy comments are responsive, and proposed actions will address our concerns; therefore,
no further comments are required.



                                              14
      3. Instruct fund managers to develop command-level standard operating
procedures that define:

              a. roles and responsibilities, including supervisory review, of officials
responsible for authorizing, approving, and entering transactions in the Standard
Accounting, Budgeting and Reporting System;

             b. the level of detail and types of documentation that must be retained in the
standard document number files to adequately support all transactions entered in the
Standard Accounting, Budgeting and Reporting System under their purview; and

                c. a process for validating and testing the accuracy of financial coding,
including the special interest code, deployed support cost account code, or other codes that
specifically affect Marine Corps Cost of War reporting.

Management Comments
The Acting Assistant Secretary of the Navy (Financial Management and Comptroller) agreed,
stating that recent updates to the Marine Corps Contingency Operations Financial Handbook,
along with planned updates to Marine Corps Order 7300.21A, would be used as the basis for
field comptrollers to update command-level standard operating procedures.

Our Response
The Navy comments are responsive, and proposed actions will address our concerns; however,
the comments did not include a completion date for issuing the guidance. Therefore, we request
the Assistant Secretary provide the completion date for the planned actions.

       4. Require Marine Corps commands to enter deployed support cost account codes
for transactions in the Standard Accounting, Reporting and Budgeting System with an
overseas contingency operations special interest code based on existing Cost of War
reporting requirements in Marine Corps Administrative Message 228/07, “Contingency
Cost Account Code Changes FY07,” March 26, 2007.

Management Comments
The Acting Assistant Secretary of the Navy (Financial Management and Comptroller) agreed,
stating that the Marine Corps Fiscal Director would issue specific direction pertaining to Cost of
War coding requirements at the beginning of each fiscal year.

Our Response
The Navy comments are responsive, and proposed actions will address our concerns; therefore,
no further comments are required.

       5. Review the current Marine Corps methodology for allocating costs between
multiple contingency operations and revise, as necessary, procedures to ensure all relevant
Marine Corps costs applicable to supporting each contingency operation are properly
accounted for and accurately reported.



                                                15
Management Comments
The Acting Assistant Secretary of the Navy (Financial Management and Comptroller) agreed,
stating that the Marine Corps would review its methodology for allocating costs between
multiple contingency operations. However, he stated that because many commands are involved
in multiple operations, costs applicable to those operations would be reasonably allocated, such
as through the use of “boots on the ground” estimates.

Our Response
The Navy comments are responsive, and proposed actions will address our concerns; however,
the comments did not include a completion date for reviewing the methodology for allocating
costs. Therefore, we request the Assistant Secretary provide the completion date for the planned
actions.




                                               16
Appendix A. Scope and Methodology
We conducted this performance audit from April 2009 through March 2011 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.

We interviewed officials responsible for signing contracts, managing funds, entering transactions
into SABRS, developing and consolidating Cost of War data, and correcting system errors.
Specifically, we interviewed command comptrollers, contracting officers, fund managers,
financial analysts, and budget analysts. In FY 2008, 17 major commands reported approximately
$4.74 billion in OCO-related O&M obligations and deobligations on the DoD Cost of War
Report. Of those 17 major commands, we selected a judgment sample of 6 commands on the
basis of their mission and the amount of reported OCO-related obligations. Specifically, we
selected HQMC Programs and Resources; Logistics Command; Recruiting Command; Marine
Forces Central Command; Marine Forces Command (Atlantic); and Systems Command;
however, we determined that OCO-related obligations reported by those commands also
included transactions processed by other major commands and subordinate commands. To
understand internal controls, discuss transactions in our sample, and review source
documentation, we visited the following 10 major and subordinate commands.

    Command                                          Location
    II Marine Expeditionary Unit, Camp Lejeune       Jacksonville, North Carolina
    Base Command, Camp Lejeune                       Jacksonville, North Carolina
    HQMC Budget Execution                            Arlington, Virginia
    HQMC Installations and Logistics                 Arlington, Virginia
    HQMC Manpower and Reserve Affairs                Arlington, Virginia
    HQMC Plans, Policies, and Operations             Arlington, Virginia
    Logistics Command                                Albany, Georgia
    Marine Forces Central Command                    Tampa, Florida
    Recruiting Command                               Quantico, Virginia
    Systems Command                                  Quantico, Virginia

We also contacted the following two units in Iraq by phone and e-mail that reported costs
through Marine Forces Central Command.

    Unit                                             Location
    Al’Asad Air Base                                 Iraq
    Al’Taqaddum Supported Activities Supply          Iraq
      System Management Unit

We also met with officials from the DFAS Indianapolis Contingency Reporting Team and
Expeditionary Support Organization and the Associate Director, Contingency Operations, Under
Secretary of Defense (Comptroller)/Chief Financial Officer, to discuss the development, use, and
issuance of the FY 2008 Cost of War Report. Further, we met with officials from HQMC


                                                17
Accounting and Financial Systems Branch to discuss SABRS financial coding and to obtain the
universe of OCO-related transactions processed through SABRS in FY 2008.

We reviewed internal controls over the processes represented by transactions in our sample
through interviews and reviewing documentation. Specifically, we met with personnel
responsible for entering transactions in SABRS to identify how the transactions were authorized,
supported, and processed through SABRS for transactions pertaining to purchase requests,
project orders, contracts, contingency per diem, SDT, warrior and family support, and
predeployment training. In addition, we discussed the process for identifying and correcting
errors and problem disbursements within SABRS. We also obtained and reviewed various error
and problem disbursement reports related to unmatched disbursements, negative unliquidated
obligations, and spending errors (automated interface errors).

We randomly selected and reviewed 139 OCO-related transactions, including O&M obligations
greater than or equal to $5 million and deobligations less than or equal to negative $5 million,
from a population of 284 transactions with a net value of approximately $1.57 billion and an
absolute value of approximately $3.88 billion. The population was comprised of approximately
$2.72 billion in obligations and $1.16 billion in deobligations. Because 3 transactions in the
sample were entered by Marine Corps officials outside the scope of our audit (October 1, 2007,
through September 30, 2008), our projections were based on the results of 136 transactions
reviewed with a net value of approximately $840 million and an absolute value of $1.99 billion.
In addition to the three transactions in the sample that were outside the scope of our audit, we
found one more transaction in the population. That transaction reduced the population to
280 with a net value of approximately $1.57 billion and an absolute value of approximately
$3.85 billion.

For the transactions in our sample, we reviewed documentation to determine whether the amount
was supported, properly authorized, and appropriately coded to support how the cost was
reported on the DoD Cost of War Report. We also interviewed officials and reviewed
documentation to determine the purpose of the transaction by reviewing whether appropriate and
relevant financial coding corresponded to the specific operation (OIF or OEF) and CBS cost
category that appeared in the DoD Cost of War Report. Specifically, we reviewed whether the
appropriate special interest code, DS CAC, and if applicable, the object and sub-object class
codes had been entered by Marine Corps personnel.

Use of Computer-Processed Data
We obtained OCO-related obligations and deobligations processed through SABRS during
FY 2008 for 17 commands from HQMC Accounting and Financial Systems Branch. We tested a
sample of the transactions using various reports from SABRS, specifically the History
Transaction File Inquiry, Active File Inquiry, and Multi History Transaction File Selection
reports to identify pertinent financial codes entered by Marine Corps officials for each
transaction. We tested the accuracy and reliability by reviewing corroborating evidence, such as
statements of work, Military Interdepartmental Purchase Request Acceptances, contracts, and
cost estimates, when available. In addition, we evaluated internal controls over the processes
related to each type of transaction included in our sample. Further, we reviewed prior audit
reports addressing the reliability and operating effectiveness of SABRS controls. From these


                                               18
procedures, we have reasonable assurance that the data were sufficiently reliable for the purposes
of our analysis and findings.

Use of Technical Assistance
The Quantitative Methods and Analysis Division of the DoD Office of Inspector General
provided assistance in designing the statistical sampling plan for Marine Corps commands
selected by the audit team and drawing a statistical sample of obligations and deobligations.
Based on the sample results provided by the audit team, the Quantitative Methods and Analysis
Division computed statistical projections. In addition, the Office of General Counsel evaluated
whether select obligations met the intent of the DoD supplemental funding legislation authorized
in Public Law 110-252, Title IX, “Defense Supplemental Appropriations for Fiscal Year 2008,
Department of Defense - Military,” or potentially violated the Antideficiency Act. ∗

Prior Coverage of Cost of War Reporting for
Contingency Operations
During the last 5 years, GAO and the DoD IG have issued 7 reports discussing OCO-related
costs and concerns over the integrity, confidentiality, and availability of data reported in SABRS.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Report No. 10-562R, “Opportunities to Improve Controls over Department of Defense’s
Overseas Contingency Operations Cost Reporting,” May 27, 2010

GAO Report No. 09-302, “DoD Needs to More Accurately Capture and Report the Costs of
Operation Iraqi Freedom and Operation Enduring Freedom,” March 17, 2009

GAO Report No. 08-68, “Global War on Terrorism: DoD Needs to Take Action to Encourage
Fiscal Discipline and Optimize the Use of Tools Intended to Improve GWOT Cost Reporting,”
November 6, 2007

GAO Report No. 05-882, “Global War on Terrorism: DoD Needs to Improve the Reliability of
Cost Data and Provide Additional Guidance to Control Costs,” September 21, 2005

DoD IG
DoD IG Report No. D-2009-073, “DoD Components’ Use of Global War on Terror
Supplemental Funding Provided for Procurement and Research, Development, Test and
Evaluation,” April 8, 2009

DoD IG Report No. D-2009-058, “DoD Cost of War Reporting of Supplemental Funds Provided
for Procurement and Research, Development, Test, and Evaluation,” February 27, 2009


∗
 Title 31, United States Code, Section 1341 (1982), “Limitations on Expending and Obligation Amounts,” and
Section 1517, “Prohibited Obligations and Expenditures.”


                                                      19
DoD IG Report No. D-2008-101, “General Controls Over the Standard Accounting, Budgeting,
and Reporting System (SABRS),” June 6, 2008




                                           20
Appendix B. DoD and Marine Corps Policy and
Guidance for Reporting OCO-Related Costs
DoD and the Marine Corps developed guidance for reporting contingency costs and requiring
audit trails to support transactions entered in the accounting system. DoD issued
DoD FMR 7000.14-R, Volume 12, Chapter 23, “Contingency Operations,” September 2007;
DoD FMR 7000.14-R, Volume 3, Chapter 8, “Standards for Recording and Reviewing
Commitments and Obligations,” June 2005; and DoD FMR 7000.14-R, Volume 6A, Chapter 2,
“Financial Reports Roles and Responsibilities,” March 2002. The Marine Corps issued Marine
Corps Order P7300.21, “Marine Corps Financial Execution Standard Operating Procedure
Manual,” March 29, 2001, to improve the supportability and accuracy of financial data.

DoD Policy on Contingency Operations
DoD FMR 7000.14-R, volume 12, chapter 23, defines a contingency operation as support for
peacekeeping operations, major humanitarian assistance efforts, noncombatant evacuation
operations, and international disaster relief efforts. It requires contingency operation costs to be
reported monthly in a status of funds report by CBS. In addition, it requires the DoD
Components to report the obligation of all funds (regardless of source) to cover the incremental
cost of the contingency based on Component-unique standard operating procedures. Further, the
DoD FMR states that only incremental costs associated with the contingency operation should be
used for estimating and reporting purposes and that those costs should be reported using a
common cost structure, which in the FY 2008 Cost of War Report was the CBS cost category.

DoD and Marine Corps Policies on the Supportability of
Financial Transactions
DoD FMR 7000.14-R, volume 6A, chapter 2, requires DoD Components to ensure that audit
trails exist in sufficient detail to permit tracing of transactions with a unique identity from their
source to demonstrate the accuracy, completeness, and timeliness of each transaction. In
addition, it requires DoD Components to develop written documentation supporting an
adjustment that includes the justification, detailed numbers and dollar amounts of errors or
conditions, date, and name and position of the individual approving the adjustment.

DoD FMR 7000.14-R, volume 3, chapter 8, requires the accounting office responsible for the
official accounting records of the fund manager to have a copy of the obligating document that
supports the obligation before recording it in the accounting system.

Marine Corps Order P7300.21 requires fund managers to maintain valid source documentation to
substantiate information processed in the accounting system and to satisfy audit requirements.
Acceptable documentation to support an obligation includes: Amendment of
Solicitation/Modification of Contract (SF 30), Order for Supplies and Services (DD Form 1155),
Military Interdepartmental Purchase Request Acceptance (DD Form 448-2), Order for Work and
Services (NAVCOMPT Form 2275), and a Request for Contractual Procurement
(NAVCOMPT Form 2276).



                                                  21
Appendix C. Statistical Sampling Methodology
and Projections
The Quantitative Methods and Analysis Division designed the statistical sampling plan and
selected a statistical sample of obligations and deobligations.

Statistical Sampling Methodology
The Quantitative Methods and Analysis Division designed a simple random sampling plan from
the population of 6 nonstatistically selected Marine Corps commands with 284 transactions with
values either less than or equal to negative $5 million (deobligations), or with values greater than
$5 million (obligations), and selected a statistical sample of 139 transactions. The audit team
subsequently found that 3 transactions in the sample, and 4 of the 284 transactions in the
population were entered into SABRS in FY 2009 and were outside the scope of the audit.
Consequently, the sample size was reduced to 136 transactions corresponding to the adjusted
population of 280 transactions.

Statistical Projections and Interpretations
Based on the audit results of the sampled transactions provided to the Quantitative Methods and
Analysis Division, statistical projections are provided for measures used in the audit report. We
are 90-percent confident that the number and amount of transactions for each measure are
between the lower and upper bounds.

                              Table C. Support for Transaction Amounts
                                                                     90-Percent Confidence Level
                Transactions                         Measure      Lower         Point           Upper
                                                                  Bound       Estimate          Bound
Supported                                            Number        164           179             194
                                                     Amount    $2.00 billion $2.27 billion   $2.54 billion
Not Supported                                        Number         72            86             101
                                                     Amount    $1.42 billion $1.82 billion   $2.22 billion
Partially Supported                                  Number          7            14              22
                                                     Amount    $68 million $204 million      $339 million
Not OCO-Related                                      Number          2             4               9
                                                     Amount     $6 million   $40 million      $74 million
OCO Relation Unknown                                 Number         19            29              39
Reported Under Incorrect Operation                   Number          1             6              11
                                                     Amount    $18 million $58 million        $97 million
Reported Under Correct Operation Unknown             Number        133           148             163
                                                     Amount    $2.04 billion $2.44 billion   $2.84 billion
Reported Under Incorrect CBS Cost Category           Number         82            97             111
                                                     Amount    $1.11 billion $1.36 billion   $1.61 billion
Legend:
CBS     Cost Breakdown Structure
OCO     Overseas Contingency Operations

Note: Amounts are approximate because of rounding.


                                                      22
Appendix D. Summary of Transactions Tested
Table D.1 identifies the results of testing whether Marine Corps documentation supported the amount of 136 transactions in our
sample. In addition, it illustrates whether the documentation supported that the transaction was OCO-related. Table D.2 identifies the
results of testing whether the Marine Corps entered appropriate financial-related codes based on the purpose of the transaction.


    Table D.1. Test Results for the Supportability of FY 2008 OCO-Related O&M Obligations Processed Through SABRS

        Command or Unit               Transactions        Documentation           Transaction Amount           Transaction Supports
                                       Reviewed             Provided                  Supported                       OCO

                                                          Yes          No        Yes      No     Partially    Yes     No     Unknown
II Marine Expeditionary Forces               6              1            5         4        2        0          2      0          4
Al'Asad (Iraq)                              13              7            6         7        3        3         13      0          0
Al'Taqaddum Supported Activities
Supply System Management Unit                7              0            7         3        4        0          7      0          0
(Iraq)
Base Command at Camp Lejuene                 3              2            1         0        0        3          3      0          0
HQMC Budget Execution                        2              1            1         1        0        1          1      1          0
HQMC Installations and Logistics            39              6           33         8       31        0         34      0          5
HQMC Manpower and Reserve
                                             3              3            0         3        0        0          3      0          0
Affairs
HQMC Plans, Policies, and
                                             1              1            0         1        0        0          1      0          0
Operations
Logistics Command                           21             11           10        21        0        0         20      1          0
Marine Forces Central Command
                                             9              6            3         9        0        0          9      0          0
Tampa (Headquarters)
Recruiting Command                           1              1            0         1        0        0          1      0          0
Systems Command                             31             28            3        29        2        0         26      0          5
Total                                      136             67           69        87       42        7        120      2         14




                                                                  23
           Table D.2. Test Results of the Accuracy of FY 2008 OCO-Related O&M Obligations Processed Through SABRS

                                 Transactions             General OCO Cost or                      Purpose of the                 Transaction Amount
    Command or Unit               Reviewed               Operation-Specific Cost                    Transaction                  Reported Under Correct
                                                                                               Corresponded With the               CBS Cost Category
                                                                                                Special Interest Code

                                                     General      Specific        Unknown      Yes       No      Unknown          Yes       No     Unknown
II Marine Expeditionary
                                          6               2            0             4           0        0            6            3         2          1
Forces
Al'Asad (Iraq)                           13               0          13              0         13         0            0            3         7          3
Al'Taqaddum Supported
Activities Supply System                  7               0            7             0           7        0            0            4         2          1
Management Unit (Iraq)
Base Command at
                                          3               0            3             0           3        0            0            2         1          0
Camp Lejuene
HQMC Budget Execution                    2*               1            0             0           0        1            1            1         1          0
HQMC Installations and
                                         39             18           16              5         16         0           23           27        12          0
Logistics
HQMC Manpower and
                                          3               3            0             0           0        0            3            3         0          0
Reserve Affairs
HQMC Plans, Policies,
                                          1               1            0             0           0        0            1            1         0          0
and Operations
Logistics Command                       21*             14             6             0           6        1           14           13         8          0
Marine Forces Central
Command Tampa                             9               2            7             0           7        0            2            9         0          0
(Headquarters)
Recruiting Command                       1               1            0              0          0         0            1            1         0          0
Systems Command                         31              17            9              5          9         1           21           17        14          0
Total                                  136              59           61             14         61         3           72           84        47          5
* The total number of transactions reviewed for this command differs from the sum of the General, Specific, and Unknown columns in the General OCO Cost or
Operation-Specific Cost section because one transaction was not OCO-related.


                                                                             24
Appendix E. List of Transactions Tested
Table E identifies each of the 136 transactions represented in our sample. The
information includes the standard document number for each transaction, a breakout
showing whether the approximate cost was positive or negative, and the absolute value of
each transaction.


           Table E. List of 136 Transactions Represented in the Audit Sample

                                Transaction Amount (in millions)
     Standard Document
                                                                        Absolute Value
          Number
                                  Obligation         Deobligation        (in millions)

  II Marine Expeditionary Forces
  M2013307WRMVIPR                   $11.0                                    $11.0
                                                        (11.0)                11.0
  M2013308AMMAINT                                        (5.0)                 5.0
  M2013308RCG4CIF                                        (5.0)                 5.0
  M2013308WRCLS01                    32.0                                     32.0
                                                        (11.0)                11.0
  Al’Asad (Iraq)
  M6789907SUAWB66                     5.7                                      5.7
  M6789908MP00015                                       (28.0)                28.0
                                                         (5.6)                 5.6
  M6789908MP00025                     9.5                                      9.5
                                     31.5                                     31.5
  M6789908SUADA26                     7.5                                      7.5
  M6789908SUADA27                                        (7.7)                 7.7
                                      7.7                                      7.7
  M6789908SUADA39                     8.8                                      8.8
  M6789908SUAWB12                                        (6.5)                 6.5
                                      6.5                                      6.5
                                      6.5                                      6.5
  M6789908SUHGA20                                        (7.7)                 7.7
  Al’Taqaddum Supported Activities Supply System Management Unit (Iraq)
  M944518080G001                                        (12.3)                12.3
  M944547232SB01                                         (5.1)                 5.1
  MMX20008MD0MTVR                                        (8.9)                 8.9
                                      8.9                                      8.9
  MMX20072560001                                         (5.3)                 5.3
  MMX20073592236                                         (5.5)                 5.5
                                      5.5                                      5.5


                                            25
 Standard Document        Transaction Amount (in millions)   Absolute Value
      Number                Obligation       Deobligation     (in millions)

Base Command at Camp Lejeune
M9317708SU00017                39.1                               39.1
                                                (20.9)            20.9
                                                (39.1)            39.1
HQMC Budget Execution
M0008507MOB1A1A                 5.1                                5.1
M0008508MPDF024                11.0                               11.0
HQMC Installations and Logistics
M0008807CB0MGKW                 5.9                                5.9
                                7.2                                7.2
M0008808CB0MGDR                10.0                               10.0
                               20.0                               20.0
                               24.7                               24.7
                                                (18.0)            18.0
                                                (12.0)            12.0
                               10.0                               10.0
M0008808CB0MGEF                                  (6.4)             6.4
                               15.1                               15.1
                               26.8                               26.8
                               10.0                               10.0
                                                (15.2)            15.2
M0008808CB0MGKW                43.6                               43.6
                               13.0                               13.0
                               20.0                               20.0
                                                (36.2)            36.2
                               10.0                               10.0
                               30.0                               30.0
M0008808CB0MGR3                10.0                               10.0
                               40.0                               40.0
                                                (30.0)            30.0
M0008808CB0MRAP                                 (70.0)            70.0
                               30.0                               30.0
                                                 (5.6)             5.6
                                                (13.3)            13.3
                              100.0                              100.0
                               40.0                               40.0
M0008808GBTCCCD                 6.1                                6.1
                                5.1                                5.1
                                                 (6.7)             6.7


                                      26
                           Transaction Amount (in millions)
 Standard Document                                            Absolute Value
      Number                                                   (in millions)
                             Obligation       Deobligation

HQMC Installations and Logistics (cont’d)
M0008808MP7T581                 11.8                               11.8
                                45.4                               45.4
                                23.4                               23.4
                                13.2                               13.2
                                13.2                               13.2
M0008808MP7T593                 13.8                               13.8
M0008808RCFE121                                  (16.3)            16.3
                                16.3                               16.3
HQMC Manpower and Reserve Affairs
M0008408MDMGWFS                 10.9                               10.9
                                 5.9                                5.9
                                 5.9                                5.9
HQMC Plans, Policies, and Operations
M0009008MPP0014                 18.0                               18.0
Logistics Command
M3845008SUMC006                 10.0                               10.0
M3845008SUMC062                                   (8.6)             8.6
M6700408MP81019                                   (5.4)             5.4
                                 5.4                                5.4
M9885008WR00001                  6.7                                6.7
                                                  (6.7)             6.7
M9885008WR00002                  6.7                                6.7
M9886108MP3564D                 20.9                               20.9
M9886108PO3C120                                   (8.5)             8.5
M9886108PO3C5R1                                   (7.8)             7.8
M9886108PO3C6Q0                                  (37.1)            37.1
M9886108PO3C6S0                  8.2                                8.2
M9886108PO3C6Z0                 15.0                               15.0
M9886108PO3C7F3                  8.9                                8.9
M9886108PO3D218                  6.6                                6.6
M9886108PO3D6Q0                 24.5                               24.5
                                                 (24.5)            24.5
                                19.0                               19.0
M9886108PO3D76S                                  (15.4)            15.4
                                12.1                               12.1
M9886108PO3D7F3                  8.9                                8.9



                                       27
 Standard Document     Transaction Amount (in millions)   Absolute Value
      Number            Obligation        Deobligation     (in millions)

Marine Corps Central Command Tampa
M6789808MPDD132                              (11.0)            11.0
                                              (7.4)             7.4
                            7.4                                 7.4
                            9.2                                 9.2
M6789808RCAT024                               (5.2)             5.2
M6789808RCDD015             10.4                               10.4
M6789808RCDD023                               (7.0)             7.0
M6789808RCDD096             5.7                                 5.7
M6789808RCDD168             7.3                                 7.3
Recruiting Command
M3987808RC8GWOT             11.7                               11.7
Systems Command
M6785408AMPA900             18.4                               18.4
M6785408MPAW300             40.0                               40.0
                            49.0                               49.0
M6785408MPAW487              5.1                                5.1
M6785408MPAWJ50             10.0                               10.0
M6785408MPKDD72              9.0                                9.0
                             5.5                                5.5
M6785408RC5AA07             16.1                               16.1
M6785408RCAC359                               (6.9)             6.9
                            15.3                               15.3
                             6.9                                6.9
M6785408RCAW217              5.6                                5.6
                             5.6                                5.6
M6785408RCAWL83             34.1                               34.1
M6785408RCS3A04              9.2                                9.2
M6785408RCS3B12             10.0                               10.0
M6785408RCS9G16              6.2                                6.2
M6785408RCS9H91             15.2                               15.2
M6785408RCSAF92              8.8                                8.8
M6785408RCSB791              5.7                                5.7
M6785408RCSB962              8.4                                8.4
M6785408RCSEB46              6.6                                6.6
M6785408RCSF967              8.0                                8.0
M6785408RCSJD60              8.5                                8.5
M6785408RCSN842              7.3                                7.3
M6785408RCSND70              8.2                                8.2


                                   28
                           Transaction Amount (in millions)
 Standard Document                                            Absolute Value
      Number                                                   (in millions)
                            Obligation        Deobligation

Systems Command (cont’d)
M6785408RCSRA54                                   (8.0)             8.0
M6785408RCSRC51                  6.7                                6.7
M6785408RCSRE30                  5.1                                5.1
M6785408RCSRL23                  8.1                                8.1
                                15.0                               15.0
Total                         $1,413.8          ($573.8)         $1,987.6




                                       29
Glossary
Absolute Value. The positive value for a real number without regard to the sign.

Audit Trail. The ability to trace a transaction back to source documentation to ensure
the accuracy, completeness, and timeliness of a transaction as well as to provide
documentary support for all data entered in accounting systems.

Budget Execution Activity. A two-position alphanumeric code representing a
subdivision of a Major Command for the purpose of controlling a specific segment of
authorized funds used for accomplishing assigned missions.

Budget Execution Subactivity. The lowest organizational level in the Marine Corps to
which funding is broken down.

Confidence Level. The degree of belief an auditor has in the obtained results.

Contingency Operation. Any small, medium, or large scale operation designated by the
Secretary of Defense where U.S. Armed Forces are or may become involved in military
operations against a hostile enemy, peacekeeping, humanitarian assistance, international
disaster relief, or noncombatant evacuations.

Cost Breakdown Structure. A formalized structure developed to aid reporting costs of
a contingency operation by category.

Cost of War Report. A monthly and quarterly report showing funding that the DoD
executed based on the appropriation type, special interest code, and cost account code.

Data Element Change. A change to data (for example, special interest code,
deployment support cost account code, object class code) in the financial information
pointer.

Deployed Support Cost Account Code. A special cost account code used specifically
for authorized contingency operations to provide a means of reporting costs of war and
reimbursing commands for contingency support costs.

Financial Information Pointer. A collection of data elements that is essential to
collecting and classifying funds by the type of funds used and the purpose for which they
were executed.

Lower Bound (Lower Precision Limit). In attribute sampling, the minimum error
estimated to exist in the population at a specified confidence level. In variable sampling,
the minimum estimated value of the population at a specified confidence level. It is used
to define the lowest value in a precision interval.




                                            30
Military Interdepartmental Purchase Request Acceptance. A signed document, from
an external organization, that shows an agreement to perform work or services that once
received, constitutes an obligation of funds.

NAVCOMPT Form 2275. A document used to request reimbursable work or services
from any Department of the Navy Component or external command that initially signifies
a commitment until accepted by the command agreeing to perform the services; that
signature results in the obligation of funds from the requesting command.

NAVCOMPT Form 2276. A document used to request a contracting action for work or
services that is known, specific in nature, and can be contractually procured.

Object Class Code. A three-digit code defining the nature of the services or supplies
and materials purchased.

Obligation. A firm, legally binding agreement between parties to acquire goods or
services that results in the Government being liable for the amount shown on the
agreement.

Point Estimate (Statistical Estimate). A numerical value assigned to a population
parameter on the basis of evidence from a sample.

Population. The total collection of items from which a sample is selected.

Sample. A subset of a population that is examined or tested in order to obtain
information or draw conclusions about the entire population.

Second Destination Transportation: Transportation required to effect movement of
materiel from, to, or between the original destination and another destination.

Sub-object Class Code. A financial code specifying the source or specific nature of the
services or equipment purchased.

Special Interest Code. An optional 2- to 3-digit alphanumeric code identifying specific
functions within the budgetary subdivision field or other unprogrammed, highly visible
issue (for example, Operation Iraqi Freedom, Operation Enduring Freedom).

Transportation Account Code. A four-digit alphanumeric code used for classifying the
nature (for example, activity, location) of all Marine Corps-funded shipments.

Upper Bound (Upper Precision Limit). In attribute sampling, the maximum error
estimated to exist in the population at a specified confidence level. In variable sampling,
the maximum estimated value of the population at a specified confidence level. It is used
to define the highest value in a precision interval.




                                            31
Department of the Navy Comments


                                                                                                             Final Report 

                                                                                                              Reference 





                                THE ASSISTANT SECRETARY OF THE NAVY
                                   (FINANCIAL MANI\GEMEN T AND COMPTROLLER)
                                               1000 NAVY PENTAGON
                                           W.A.SHltJGTON DC 20350-1000



                                                                                   May 13, 201 1

      MEMORANDUM FOR DEPA RTMENT Of' DEFENSE INSPECTOR GENERAL

      SUBJECT: COS! o f War Data for Marine Corps Contin gency Operations Were Not
               Reli able (Project No. D2009-DOOOFG-0 183.000)

             The Department of the Navy (DON ) val ues high qualit y ex ternal rev iews that
     provide substantive findings that enabl e us to im prove our abilit y to produce accurate,
     reliable fi nandal informa tio n and statements. The draft Departme nt of Defense (DoDIG)
     Inspector General Report provides so me valu able observa tions and recommendations for
     imp rovement of our co mmand-leve l procedures, policies and reporting requirements.
     The DON does have concerns with the DoDIG 's assessment of Marine Corps Overseas
     Con tin genc y Operations (OCO) transacti ons in the Standard Accounling, Budgeting and
     Reporting System (SA BRS), and finus the DoDIG' s assertion that transactions assoc iated
     with the WW II POWs and Maritime Pre-positio nin g violate the Ant i- Deficiency Act
     (ADA) as erroneo us.                                                                                  Revised

                                     Click to add JPEG file
           I have reviewed Ihe DoDIG 's reco mmendati ons and have the follow ing
     co mment s:

                      I. Recommendati on I. Update Marine Co rps Order (MCO) 7300.2 1A.
     "Marine Corps Financial Management Sta ndard Operating Procedure Manu al," October
     2, 2008, to defin e the level of detail and types of documentation necessary for
     maintajning a written aud it trail to support all obl iga ti ons, incl uding tho!")c related to uaw
     eleme nt changes, adjus tments. and cn·or corrections, to improve the accuracy and
     supportab ilit y of financial informat iun processed through SABRS.

     DON Response: Co ncur. The Marine Corps is in the process of updating              Meo
     7300.2 1A. This effort is expected 10 be comp lete hy end of FY 20 I t.

                    2. Reco mmendatio n 2. Develop admini strati ve procedures for the
      overseas con tingenc y Dp~ rations reporting process, and initiate actions against fund
     managers that do not show that th ey have properl y rev iewed and va lidated the acc uracy
     and supportab ility o f Cost of War (Co W) data.




                                                                    32
SU BJECT: Cost of War Data fur Marine Corps Contin gency Operat ions Were Not
             Reliable (Project No. 020U9-0000FG-0 183.000)

DON Response: Concur. The Marine Corps Fiscal Direc to r has promulgated
admini strative procedures for OCD repo rting, to include a naval mess age outlining CoW
coding requirements at the beg innin g of the year, an update to the Contingency
Operations Financial Managemem Handbook, and the inclusio n of a CoW section in the
Marine Corps' standard financi al checkli st for the accuracy of budget execution records,
internal controls and supportin g documentation. The Co W chec kJi sl enahl e." fi e ld
command comptroll ers 10 verify and validate proper codi ng of oca transaction s. As part
of the monthly COW admini strative review process, the Marin e Corps imprope r cod ing
trends are iden tifi ed and forw arded to the Marine Corps Finand al Evaluation and
Analys is Team (MCFEAT) for further review, assess ment and tra inin g of field
comptroller personnel, thus correcti ng root cause issues and identifyin g enterprise wide
solutions.

             3. Reco mmendation 3. Instruct fund man agers to develop command-level
standard operatin g proced ures that define:

                       a. Ro les and respons ibilities, including supervisory rev iew, of
                              Click to add JPEG file
officials respo nsible for authori zing, approving, and enterin g tran sactions in SABRS.

                       b. The level of detail and lypes of documelltatiun lhat mu st be
retained in th e standard document number fil es to adeq uately support all tran sacti o ns
entered in SABRS under the ir purview; and

                       c. A process for validatin g and testin g th e accuracy of financial
coding, including the special interest code, deployed support cos t account code, or other
codes th at specifically affect Marine Corps CoW reporting.

DON Response: Concur. Together, the recentl y publ ished update to the
Marine Corps Contingency Operations Financial Management Handbook and the
Financial Management Standard Operating Procedure. Mea 7300.2 1A, currentl y being
updated, identify the roles and res ponsibilities, detail and types of documentation, and
pro per processes and procedures for rcporting contingency operati ons costs. Based un
the publication of these documems, fi eld comptro ll ers will update their command
Standard Operating Procedures.

            4. Recommendation 4. Require Marine Co rps commands to enter
deployed support cost accou nt codes for tran saction s in SABRS with an OCD special




                                                            33
                                                                                                         Final Report 

                                                                                                          Reference





SUBJEC T: Cos t of War Data for Marine Corps Continge ncy Operati ons Were Not
          Reliable (Projec t No. D2009-DOOOFG-0183.000)

interest code based on ex isting CoW reporting requirements in Marine Corps
Admin istrati ve Message 228/07, "Contingency Cost Account Cude Changes FY07,"
March 26, 2007.

DON ResDonse: Concur As part o f initial guidance to Marine Corps field
comptrollers at the beginning of the fi scal year, the Marin e Co rps Fiscal Director will
continue 10 promulgate specific direction regardin g CoW coding requirements. Most
recently, thj s was pro mul gated in thc form of a Naval Message.

               5. Reco mmendati on 5. Initiate a prelimi nary rev iew, per wi th DoD                   Deleted
Financial Management Reg ula tion 7000. 14-R, Volume 14, Chapter 3, "Preliminary                       Recommendation
Rev iews of Potential Violations," Nove mber 20 10, to determine whether the use o f OCO-
related operations and maintenance funds for prisoner o f war and ship prc-positionin g
costs not directly supporting ongo in g co ntingcm:y uperati ons resulted in a potentia] $ 19.6
milli on Al1lidefi cieny Act violation.

DON Response: The Department non-concu rs with thi s recommendation. The DoDIG
                                Click to add JPEG file
report no tes th at $ 19.6 million of FY 2008 Ove rseas Contin gen cy Operations (OCO)
                                                                                                       Revised
supple me ntal Operati on and Maintenance, Marine Corps (O&M, MC) funding was used
to pay for two transactions that did not directl y suppor! on go ing cOnIin gency operat ions
and tha t these acti o ns pOlemiall y vi olate the ADA . Before address ing the two
tran sactions, it is important to be clear on the ti scall ega lit y of the information presented.
The DoDIG asserts that the two transactions were inconsistent with legis lati ve intent.
Although committee report language describes the fundin g as support fo r Operation
Enduring Freedom (OEF), there were no legal rcstric tions included in the FY 2008
Supplemental Appropriati ons Act (PL. 110-25 2). For a potential AD A to occur, the
legall y binding res trict ion on the use o f the fund s mllst be contai ned in the Appropri atio ns
Act. (Sec LTV Aerospace Corp. , B-1 8385 1, Oct. I, 1975 and Principles of Federal
Appropriations La w. Vol. 1. Ch, 2. p. 96-98.) Therefore, in accordance with the law, the
FY 200R OCO funds merge with other appropriated FY 2008 O&M,MC fund s and are
available fo r the same legal purpose as an y O&M ,MC funds.

        With regard to the WWII payments, Section 667 of the FY 200 I Natio nal Defense
Authorization Act (NDAA) authori zes the Secretary of the Navy to provide back pay La
certain WWlI Sailors and Marines and specificallY provides that the Sec retary m~ y p~y
Ihesecos ts " ... from any appropriation curre ntl y avail abl e to the Secretary .. ." The
transn.ctions identifi ed do not constitute a lcgal misusc of appropriated fundin g. As
                                                                                                       Revised
previ ously discussed, FY 2008 acc fundin g was merged with other appropriated FY
2008 O&M ,MC funding and pursuant to Sec. 667 we re available for WWII back pay.




                                                               34
                                                                                                      Final Report 

                                                                                                       Reference





SUBJECT: Cost of War Data for Marine Corps Contingency Operations Were Not
         Reliable (Proi ect No. D2009-DOOOFG -OI83.000)

Since pre-positioning cos ts are app ropriate charges to the O&M ,MC appropriation and all          Revised
FY 2008 appropri ated O& M,MC fundin g was merged, there is no legal violation and
lherefu re there can be no ADA violation.

           It should be further noted that the reportin g of CoW transactions is not direct ly
equi valent to the availahility of OCO-relnted resources. In the case of the FY 2008
O&M ,MC account , the Department was provided a total of $4,498 mil lion re lated to
OCO estimates. $4,694 millio n was the total reported as CoW. Even if the questioned
transactions should nO( have been reported as CoW, it cannot be co ncluded that aco was
used in appropriately.

                6. Reco mmendat ion 6. Rev iew the current Marine Corps methodology                 Renumbered as
for all ocating costs between multiple contin gency operations and rev ise, as necessary,           Recommendation 5
procedu res to ensure all relevant Marine COiVS custs applicable to supporLing each
contingency operation are properly accounted for and accurate ly reported.

DON Response: Concur. The Marine Corps wi ll review its methodology for
                               Click to add JPEG file
alloca tin g costs bel ween multiple con tingency operations; however, it must be noted that
man y co mmands are invo lved in multipl e operations, and must of necessity app ly a
"reasonableness" princi pl e in allocati ng costs. Fur example, it wo ul d be imposs ibl e to
determine the benefi ting theater when funds are Obli gated for a gall on of fuel. In thi s
instance the field co mptroll ers will deri ve an estimate based on criteria such as "boots on
the ground .'·

          The Marine Corps recentl y concludcd its audit of the General fo"und Stateme nt
of Budgetary Resources (S BR) for FY 2010 under the auspices o f the DoD IG. As part of
the conduct of th is engagement, the Marin e Corps recci,,·ed sampling req uests for 1,730
tran sactions and prod uced more tha n 13,300 source documents. This was a rigorous and
hi ghly coll aborative exerc ise that aimed at supporti ng all necessary account balances in
accordance with the federal auditi ng standards and principles promulgated by the
Government Accountabilit y Office, the Prcsident's Co uncil on Integri ty and Effi ciency
(i.e., Financial Aud it Manual (FAM), alld other authori tati vt: suurces . The res ults of th is
aud it demo nstrated the Marine Corps ' abi lit y to prod uce a large vo lume of auditable
supporting doc umentation, wi th the exception of those areas identified in the Notices of
Findings and Recommendations (NFRs) that were genera ted and forma ll y trans mi tted 10
the Marine Corps. The NFR s did not speci fi call y identify concerns withi n OCO
transactions. The ex periences of the SBR audit of FY 2010 also confinn the
efft:cti vt: ness of <lc tiollS im plemented since 2008 lO improve fin ancial transac tio ns. We
therefore cannot agree with the DoLJJG's audit projec tion of $3.4 biHi o n as a potential
material mi sstateme nt.




                                                             35
SUBJECT: Cost o f War lJata for Marine Corps Cont ingency Operations We re Not
         Reliab le (Proiect No. D2009-DOOOFG-0 183.000)

       The DO N and Marine Corps welcomes the opportunit y to work transparently with
the Do DI G to furth er improve our fin a ncial                             and
- .It uf contac t fo r thi s matle r is




                                         John W. McNair
                                         Actin g

cc:
DCMC(P&R )
DASN(B udget)




                           Click to add JPEG file




                                                      36
